—
I

C@QCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 19-868

AARON MINER AND DENNIS LAURANCE,
Petitioners,
v.
STEVEN L. PICATTI,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF OF THE
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 2931 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 28th day of May, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL ROTARY State of Webraska | Quedraw }
A RENEE S.QOSS ze, ), thor’ &. Gh
My Comm. Exp. September 8, 2023

Notary Public Affiant

   
   

 

 
